DOE F 1325.8
(08-93)
United States Government                                                             Department of Energy


memorandum
         DATE:       April 9, 2004                              Audit Report Number: OAS-L-04-13
    REPLY TO
     ATTN OF:        IG-35 (A04DC009)

     SUBJECT:        Audit Report on "Reimbursable Work for the Department of Homeland Security"
               TO:   Administrator, National Nuclear Security Administration, NA-1

                     INTRODUCTION AND OBJECTIVE

                     The Homeland Security Act of 2002 authorizes the Department of Homeland Security
                     (Homeland Security) to utilize the capabilities of the Department of Energy's
                     (Department) laboratories and other sites to carry out Homeland Security's missions. The
                     Act further provides that the Department may accept and perform work for Homeland
                     Security on an equal basis with other Departmental laboratory and/or site missions and
                     that Homeland Security will reimburse the Department in an amount comparable to
                     similar work performed by its contractors.

                     On February 28, 2003, the Secretaries of Energy and Homeland Security entered into a
                     Memorandum of Agreement, specifying the requirements established in the Homeland
                     Security Act. Department officials estimated that Homeland Security could add a
                     significant amount of additional work for the laboratories. The purpose of this audit was
                     to determine whether the Department has the infrastructure (personnel, facilities, etc.) to
                     meet the reimbursable work requirements for Homeland Security. Additionally, we
                     sought to determine whether the Department was being reimbursed in accordance with
                     established policy and whether milestones and deliverables were being met.

                     CONCLUSIONS AND OBSERVATIONS

                     After the Memorandum of Agreement was signed, the Department's laboratories received
                     limited Fiscal Year (FY) 2003 funding to support Homeland Security. Specifically, Los
                     Alamos National Laboratory (Los Alamos) and Sandia National Laboratories (Sandia),
                     two sites included in this review, received $2.8 million and $3.4 million, respectively.
                     We reviewed five of the six Los Alamos proposals and all 16 Sandia proposals for the
                     work each was conducting for Homeland Security. For these proposals, a total of 39
                     milestones/deliverables were due at the time of our site visit. We found that the
                     milestones/deliverables had generally been met. Further, officials believed that
                     Homeland Security was generally satisfied with the work performed. Thus, it appeared
                     for the proposals we reviewed, that the existing resources were sufficient to carry out the
                     Homeland Security requirements. Our review also disclosed that appropriate fees were
                     being assessed for Homeland Security's work.
Sandia and Los Alamos were both prepared to provide increased support to Homeland
Security in FY 2004, and in fact, had programmed their reimbursable budgets up to $78
million and $64 million, respectively. However, as of February 2004, the Department
and its laboratories had not received an overall funding plan detailing the amount of
reimbursable work it expected Homeland Security to request in FY 2004. Thus, there
was not a basis to determine the adequacy of the Department's support for Homeland
Security in FY 2004.

Officials at both Los Alamos and Sandia were concerned about their ability to meet
Homeland Security's undefined FY 2004 reimbursable work requirements. For instance,
if there was significantly more work requested than anticipated, the laboratories might
not liave sufficient resources to conduct the work. Conversely, laboratory officials were
reluctant to acquire additional staff in the event Homeland Security did not request the
reimbursable work expected.

Although National Nuclear Security Administration (NNSA) headquarters has sought
long-term planning data from Homeland Security, to date this planning information has
not been provided. Consequently, we suggest that NNSA officials work through the
Secretary's office to establish a line of communication with Homeland Security officials
so that effective planning can begin.

SCOPE AND METHODOLOGY

The audit was performed from November 2003 to February 2004 at the Department of
Energy Headquarters, Washington, DC; National Nuclear Security Administration
Service Center, Albuquerque, NM; Sandia National Laboratories, Albuquerque, NM, and
Livermore, CA; and Los Alamos National Laboratory, Los Alamos, NM. We also
discussed Homeland Security reimbursable work with officials from Lawrence
Livermore National Laboratory, Livermore, CA. The scope of the audit was limited to
determining whether the Department has the infrastructure to meet reimbursable work
requirements for Homeland Security, and whether the fees assessed Homeland Security
were in accordance with established policy.

To accomplish the audit objective, we:

*   Reviewed Federal and Departmental requirements related to reimbursable work;

*   Reviewed prior external and internal reports regarding reimbursable work, including
    the Federal Managers' Financial Integrity Act;

*   Reviewed task plans to ensure milestones were being met;

* Discussed reimbursable work with NNSA officials from Headquarters, the NNSA
  Service Center, Los Alamos, Sandia, and Lawrence Livermore National Laboratory;

*   Examined proposals to determine whether Homeland Security had been assessed
    appropriate charges and whether deliverables were provided as scheduled; and,



                                     2
*   Reviewed Performance Measures established in accordance with the Government
    Performance and Results Act.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits, and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed the significant internal controls related to reimbursable work
for Homeland Security. Because our review was limited, it would not necessarily have
identified all internal control deficiencies that may have existed. Additionally, we did not
rely extensively on computer-processed data. Finally, we reviewed the implementation
of the Government Performance and Results Act of 1993, as it related to reimbursable
work.

Since no recommendations are being made in this letter report, a formal response is
not required. We appreciate the cooperation of your staff during the audit.




                                      Lawrence R. Ackerly, Divisj~ Director
                                      National Nuclear Security Administration
                                        Audits Division
                                      Office of Inspector General

cc: Director, Policy and Internal Controls ManagementNA-66
    Team Leader, Audit Liaison Team, ME-1.1
    Audit Liaison, National Nuclear Security Administration Service Center
    Audit Liaison, Sandia National Laboratories
    Audit Liaison, Los Alamos National Laboratory
    Audit Liaison, Lawrence Livermore National Laboratory




                                      3
                                                           0^ISC-   9C-r-3


bcc: DPA (2)
     AIG for Investigations, HQ
     AIG for Inspections, HQ
     Don Farmer, Investigations, Richland, WA
     Wilma Slaughter
     Judy Garland-Smith
     SET&F Audits Division
     Environmental Audits Division
     Albuquerque, Las Vegas, Livermore, Los Alamos, Y-12
     Library
     Washington Audit Group
     NNSA Audits Project File - A04DC009.




                                  4
DCE F 1325.8
(08-93)
United States Government                                                             Department of Energy


memorandum
          DATE:    April 9, 2004
   REPLY TO
    ATTN OF:       IG-35 (A04DC009)

    SUBJECT:       Final Report Package for "Reimbursable Work for the Department of Homeland Security"

             TO:   Director for Performance Audits and Administration

                   Attached is the required final report package on the subject audit. The pertinent details are:

                   1. Actual Staff days: 156

                      Actual Elapsed days: 106

                   2. Names of OIG audit staff:

                        Assistant Director: David Sedillo
                        Team Leader: Lynda Crowder
                        Auditor-in-Charge: Della Bobian
                        Audit Staff: Katherine Balke

                   3. Coordination with Investigations and Inspections: November 2003 and April 2004.




                                                          awrence R. Ackerly, Division       ector
                                                         NNSA Audits Division .
                                                         Office of Inspector General

                   Attachments:
                   1. Final Report
                   2. Monetary Impact Statement
                   3. Audit Project Summary Report
                   4. Audit Database Information Sheet
                                MONETARY IMPACT OF REPORT NO.: OAS-L-04-13


      1. Title of Audit:          Reimbursable Work for the Department of Homeland Security

      2. Division:                NNSA Audits Division/Washington Audit Group

      3. Project No.:             A04DC009

      4. Type of Audit:
             Financial:           _                                Performance:       X
                Financial Statement                                  Economy and Efficiency                  X
                Financial Related                                    Program Results
             Other (specify type):

5.
                                                                                           MGT.     POTENTIAL
          FINDING                  BETTER USED              QUESTIONED COSTS             POSITION    BUDGET
                                                                                                     IMPACT
                                         Recurring
(A)             (B)                (C)      (D)         (E)           (F)         (G)      (H)           (I)
                Title             One     Amount     Questioned   Unsupported    Total   C=Concur       Y=Yes
                                  Time      Per       Portion       Portion              N=Noncon       N=No
                                           Year                                          U=Undec
      Audit of Reimbursable                                                     N/A
      Work for the Department
      of Homeland Security




TOTALS--ALL FINDINGS                                                                                _



      6. Remarks: None

      7. Contractor:  None                                   10. Approvals:
      8. Contract No.: None                                  Division Director& D        W/-/
      9. Task Order No.:           None                      Technical Advisor & Date:                  --       /   '
                                                         Office of the Inspector General (OIG)
                                                   Audit Project Office Summary (APS)
                                                                                                                                       Page 1
Report run on:                          April 8, 2004 8:12 AM


  Audit#: A04DC009                      Ofc:       CFA     Title: REIMBURSABLE WORK FOR DEPT HOMELAND SECURITY



                                                          Planned        End of Survey             Revised           Actual


   Entrance Conference:.....                             01-OCT-03                               04-NOV-03         04-NOV-03

   Survey:..................                                                                     18-FEB-04         18-FEB-04
   Draft Report:............
   Completed (With Report):.                             30-SEP-04                               09-APR-04                         (   )
   ------------              Elapsed Days:                     365                                      154            156
                                                                                                        Elap. Less Susp:
   Date Suspended:                                                      Date Terminated:
   Date Reactivated:                                                    Date Cancelled:
   DaysSuspended(Cur/Tot):                                 (          )Report Number:
   Rpt Title:                                                           Report Type:                   Not Found




               ,..-.
                 \                         -.-..           *'&
                                                             *'Auditlt^
                                                                      C       e     and            .   ****             'Personnel
   Class:              PER      PERFORMANCE
   Program:            DP1      Not Found
  MgtChall: 005                 NATIONAL SECURITY (F
                                                                                           AD:   152     SEDILLO
   Site:               MSA      MULTI-SITE AUDIT
                                                                                          AIC:   386     BOBIAN
   SecMiss:            NNS      NATIONAL NUCLEAR SEC
                                                                                   Team Ldr:     84      CROWDER
   PresInit:                    Not Found                                          Tech Adv:     432     GAMAGE



          Task No:
          Task Order Dt:                                                CO Tech. Rep:
          Orig Auth Hrs:                                                Orig Auth Costs:
          Current Auth:                                                 Current Auth Cost:
          Tot Actl IPR Hr:                                              Tot Actl Cost:




                        SEmp/Cont Name                         days      -.        ase:            .                           *

                             CROWDER, L                          12.3             06-MAR-04
                           BALKE, K                              20.7             06-MAR-04
                           YOUNG, T                              22.3             07-FEB-04
                           BOBIAN, D                             50.9             20-MAR-04
                               Total:                           106.2
                     AUDIT DATABASE INFORMATION SHEET


1. Project No.: A04DC009

2. Title of Audit: Reimbursable Work for the Department of Homeland Security

3. Report No./Date: OAS-L-04-13/April 9, 2004

4. Management Challenge Area: National Security

5. Presidential Mgmt Initiative: N/A

6. Secretary Priority/Initiative: N/A

7. Program Code:

8. Location/Sites: Headquarters, Sandia National Laboratories, and Los Alamos National
                   Laboratory

9. Finding Summary: N/A

10. Keywords:
                Department of Homeland Security
                DHS
                Reimbursable Work
                Work for Others
                WFO
                Homeland Security Act of 2002
